La
|

OCKLE

2311 Douglas Street CA ; E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B plate contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

EDELINE JULMISSE PROSPER,
as Personal Representative
of the Estate of Junior Prosper,
Petitioner,
v.
ANTHONY MARTIN,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 4674 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of September, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023,

 

eee Aonse Loan Onchartl: hile

Affiant 41356

 

Notary Public
